SEMIANNUAL REPORT OF FDIC BOARD MEMBERS’ TRAVEL VOUCHER
        REVIEWS—SEPTEMBER 1999 TO FEBRUARY 2000




                   Audit Report No. 00-009
                       March 23, 2000




                  OFFICE OF AUDITS

            OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation
Washington, D.C. 20434                                                                Office of Inspector General



                                                                                    March 23, 2000

   MEMORANDUM TO:                  Board of Directors
                                   Audit Committee




   FROM:                           Gaston L. Gianni, Jr.
                                   Inspector General

   SUBJECT:                        Semiannual Report of FDIC Board Members'
                                   Travel Voucher Reviews -September 1999 to February 2000
                                          (Audit Report no. 00-009)

   INTRODUCTION

   The Office of Inspector General (OIG) reviews FDIC board members' travel vouchers weekly and
   reports results monthly. This report summarizes the results of the OIG's travel voucher reviews for the
   6 months ending February 29, 2000. The reviews are part of a continuing program initiated at the
   request of the Executive Office. The purpose of the program is to ensure that travel expenses incurred
   by the board members while on official travel are not paid by organizations with contractual
   agreements with the FDIC, trade associations, and persons or organizations that might be affected by
   FDIC decisions. The OIG also reviews travel vouchers for compliance with the FDIC's General Travel
   Regulations.

   SCOPE AND OBJECTIVE

   This report covers the weekly reviews performed of 16 travel vouchers submitted by and paid to the
   board members during the period September 1, 1999 through February 29, 2000. During this period,
   Chairman Tanoue submitted 16 travel vouchers to the FDIC's Division of Finance for payment. No
   vouchers were submitted by Vice Chairman Hove, the Director of the Office of Thrift Supervision, or
   the Comptroller of the Currency.

   Our objective was to determine if the board members' travel was in compliance with ethics standards
   contained in FDIC Circular 2410.4 Sub-Part B; 5 CFR Part 2635 Subpart B; and the FDIC's General
   Travel Regulations. The circular and CFR criteria prohibit acceptance of gifts, entertainment, favors,
   loans, and travel expenses from: (1) a person or organization seeking official action by the FDIC, (2) a
   person or organization doing business or seeking to do business with the FDIC, (3) a person or
   business conducting activities regulated by the FDIC, or (4) a person or organization with interests that
   may be substantially affected by the performance or nonperformance of the employee's official duties.
CONCLUSION

We concluded that the travel voucher expenses claimed by and paid to the Chairman for the
6 month period ending February 29, 2000, were in compliance with the ethics standards governing the
acceptance of gifts, entertainment, favors, loans, and travel expenses as contained in the above named
criteria and the FDIC’s General Travel Regulations.

EXECUTIVE ACTION REQUIRED

No executive action is required.
